     Department of Homeland Security

     ��������������������������


 Information Technology Management Letter for the 

  FLETC Component of the FY 2013 Department of 

    Homeland Security Financial Statement Audit 





OIG-14-84                                  April 2014

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


 
                                      April 29, 2014 
                 
 
MEMORANDUM FOR:              Sandy Peavy 
                             Chief Information Officer 
                             Federal Law Enforcement Training Center 
 
                             Donald R. Lewis 
                             Assistant Director  
                             Federal Law Enforcement Training Center 
 
FROM:                        Richard Harsche 
                             Acting Assistant Inspector General 
                             Office of Information Technology Audits 
 
SUBJECT:                     Information Technology Management Letter for the 
                             Federal Law Enforcement Training Center Component of 
                             the FY 2013 Department of Homeland Security Financial 
                             Statement Audit 
 
Attached for your information is our final report, Information Technology Management 
Letter for the Federal Law Enforcement Training Center Component of the FY 2013 
Department of Homeland Security Financial Statement Audit. This report contains 
comments and recommendations related to information technology internal control 
deficiencies that were not required to be reported in the Independent Auditors’ Report.  
 
We contracted with the independent public accounting firm KPMG LLP (KPMG) to 
conduct the audit of Department of Homeland Security fiscal year (FY) 2013 
consolidated financial statements. The contract required that KPMG perform its audit 
according to generally accepted government auditing standards and guidance from the 
Office of Management and Budget and the Government Accountability Office. KPMG is 
responsible for the attached management letter dated March 11, 2014, and the 
conclusion expressed in it. 
 
Please call me with any questions, or your staff may contact Sharon Huiswoud, Director, 
Information Systems Audit Division, at (202) 254‐5451. 
 
Attachment 
 
 
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




March 11, 2014


Office of Inspector General,
U.S. Department of Homeland Security, and

Chief Information Officer and Chief Financial Officer,

U.S. Department of Homeland Security Federal Law Enforcement Training Center

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards issued by the American Institute of
Certified Public Accountants.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated
December 11, 2013, included internal control deficiencies identified during our audit that, in aggregate,
represented a material weakness in information technology (IT) controls and financial system
functionality at the DHS Department-wide level. This letter represents the separate limited distribution
report mentioned in that report, of matters related to the Federal Law Enforcement Training Center
(FLETC) and the Offices of Intelligence & Analysis and Operations Coordination and Planning
(I&A/OPS).

During our audit we noted certain matters involving internal control and other operational matters that
are presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management and communicated through Notices of
Findings and Recommendations (NFRs), are intended to improve internal control or result in other
operating efficiencies and are summarized as described below.

With respect to FLETC’s and I&A/OPS’ financial systems’ IT controls, we noted certain matters in the
areas of access controls, segregation of duties, and IT application controls. These matters are described
in the General IT Control Findings and Recommendations and IT Application Controls sections of this
letter.

The Table of Contents identifies each section of the letter. We have provided a description of key
FLETC and I&A/OPS financial systems and IT infrastructure within the scope of the FY 2013 DHS
financial statement audit in Appendix A, and a listing of each IT NFR communicated to management
during our audit in Appendix B.



                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
During our audit we noted certain matters involving financial reporting internal controls (comments
not related to IT) and other operational matters, including certain deficiencies in internal control that
we consider to be significant deficiencies and material weaknesses, and communicated them in writing
to management and those charged with governance in our Independent Auditors’ Report and in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all deficiencies in policies or procedures that may exist. We aim, however, to use our knowledge
of DHS’ organization gained during our work to make comments and suggestions that we hope will be
useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.

Very truly yours,
                                    Department of Homeland Security
                               Information Technology Management Letter 

                                Federal Law Enforcement Training Center

                                          September 30, 2013


                                       TABLE OF CONTENTS

                                                                                            Page
Objective, Scope, and Approach                                                               2

Summary of Findings                                                                          4

General IT Control Findings and Recommendations                                              5

   Findings                                                                                  5

       Access Controls                                                                       5

       Segregation of Duties                                                                 5

   Recommendations                                                                           5

       Access Controls                                                                       5

       Segregation of Duties                                                                 6

IT Application Controls                                                                      7


                                            APPENDICES

Appendix                                        Subject                                     Page
           Description of Key FLETC and I&A/OPS Financial Systems and IT                      8
   A
           Infrastructure within the Scope of the FY 2013 DHS Financial Statement Audit 

   B       FY 2013 IT Notices of Findings and Recommendations at FLETC and I&A/OPS           10





                                                  1

                                    Department of Homeland Security
                               Information Technology Management Letter 

                                Federal Law Enforcement Training Center

                                          September 30, 2013


                              OBJECTIVE, SCOPE, AND APPROACH 


Objective

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the fiscal year that ended on September 30, 2013 (referred to herein as the “fiscal year
(FY) 2013 financial statements”). In connection with our audit of the FY 2013 financial statements, we
performed an evaluation of selected general information technology (IT) controls (GITCs) and IT
application controls at the Federal Law Enforcement Training Center (FLETC) and the Offices of
Intelligence & Analysis and Operations Coordination and Planning (I&A/OPS) to assist in planning and
performing our audit engagement.

Scope

The scope of our GITC and IT application control test work is described in Appendix A, which provides a
description of the key FLETC and I&A/OPS financial systems and IT infrastructure within the scope of
the FLETC component of the FY 2013 DHS consolidated financial statement audit.

Approach

General Information Technology Controls

The Federal Information System Controls Audit Manual (FISCAM), issued by the U.S. Government
Accountability Office, formed the basis of our GITC evaluation procedures.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
Federal agency. FISCAM defines the following five control categories to be essential to the effective
operation of GITCs and the IT environment:

�	 Security Management – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

�	 Access Control – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.

�	 Configuration Management – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provide reasonable assurance
   that systems are configured and operating securely and as intended.

   �	 We performed technical information security testing for key FLETC network and system devices.
      The technical security testing was performed from within select DHS facilities and focused on


                                                    2

                                    Department of Homeland Security
                               Information Technology Management Letter 

                                Federal Law Enforcement Training Center

                                          September 30, 2013


       production devices that directly support DHS’ and FLETC’s financial processing and key general
       support systems.

�	 Segregation of Duties – Controls that constitute policies, procedures, and an organizational structure
   to manage who can control key aspects of computer-related operations.

�	 Contingency Planning – Controls that involve procedures for continuing critical operations without
   interruption, or with prompt resumption, when unexpected events occur.

IT Application Controls

We performed testing over selected key IT application controls on financial systems and applications to
assess the financial systems’ internal controls over the input, processing, and output of financial data and
transactions. FISCAM defines application controls as the structure, policies, and procedures that apply to
separate, individual application systems, such as accounts payable, inventory, or payroll.




                                                     3

                                   Department of Homeland Security
                              Information Technology Management Letter 

                               Federal Law Enforcement Training Center

                                         September 30, 2013


                                     SUMMARY OF FINDINGS

During FY 2012, FLETC took corrective action to address certain prior year IT control deficiencies. For
example, FLETC made improvements over strengthening controls around segregation of duties and
configuration management. However, during FY 2013, we continued to identify GITC deficiencies that
could potentially impact FLETC’s and I&A/OPS’ financial data related to controls over access control,
segregation of duties, and IT application controls for the FLETC and I&A/OPS core financial and feeder
systems and associated General Support System environments.

Collectively, the IT control deficiencies limited FLETC’s and I&A/OPS’ ability to ensure that critical
financial and operational data were maintained in such a manner to ensure confidentiality, integrity, and
availability. In addition, these deficiencies negatively impacted the internal controls over FLETC’s and
I&A/OPS’ financial reporting and its operations.

Of the eleven IT Notices of Findings and Recommendations (NFRs) issued during our FY 2013 testing,
one was a repeat finding from the prior year, and ten were new findings. The eleven IT NFRs issued
represent deficiencies in two of the five FISCAM GITC categories as well as in the area of IT application
controls.

The majority of findings resulted from the lack of properly documented, fully designed and implemented,
adequately detailed, and consistently implemented financial system controls to comply with DHS
Sensitive Systems Policy Directive 4300A, Information Technology Security Program, requirements and
National Institute of Standards and Technology guidance. Specifically, the findings stem from:

    1. Inadequately designed and ineffective access control policies and procedures relating to the
       management of logical access to financial applications, databases, and support systems;
    2. Insufficient logging of system events and monitoring of audit logs; and
    3. Improper configuration of application controls to prevent recording of improper expenses.

These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and FLETC’s and I&A/OPS’ financial data could be exploited, thereby compromising the
integrity of FLETC and I&A/OPS financial data used by management and reported in FLETC’s,
I&A/OPS’, and DHS’ financial statements.

While the recommendations made by us should be considered by FLETC and I&A/OPS, it is the ultimate
responsibility of FLETC and I&A/OPS management to determine the most appropriate method(s) for
addressing the deficiencies identified.




                                                    4

                                   Department of Homeland Security
                              Information Technology Management Letter 

                               Federal Law Enforcement Training Center

                                         September 30, 2013


               GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS


Findings

During our audit of the FY 2013 DHS financial statements, we identified the following FLETC and
I&A/OPS GITC deficiencies.

Access Controls

�	 Audit logs for the FLETC and I&A/OPS Momentum applications were not consistently or timely
   reviewed by management in accordance with DHS and FLETC policy.

�	 DHS requirements for password complexity were not fully implemented for accounts on the Glynco
   Administrative Network (GAN).

�	 FLETC and IA&OPS management did not maintain listings of separated contractors to support proper
   monitoring controls around contractor access to the respective Momentum environments.

�	 Account management activities on the FLETC and I&A/OPS Momentum environments, including
   implementation of account inactivity controls, authorization of profile changes, deactivation of
   accounts, and management of generic accounts, were not consistently or timely implemented or
   documented in accordance with FLETC policy.

Segregation of Duties

�	 FLETC personnel were granted access to the I&A/OPS Momentum application environment and
   supporting system infrastructure, including highly-privileged administrative and access, that was
   inconsistent with the segregation of duties principles defined by DHS policy.

Recommendations

We recommend that the FLETC Office of the Chief Information Officer (OCIO) and Office of the Chief
Financial Officer (OCFO), in coordination with the DHS OCIO and the DHS OCFO, make the following
improvements to FLETC‘s and I&A/OPS’ financial management systems and associated IT security
program.

Access Controls

�	 Implement monitoring controls over the audit log review process to ensure that all required auditable
   events are being reviewed by management on a periodic basis, are documented, and audit log review
   evidence is maintained in accordance with DHS and FLETC requirements.

�	 Implement technical controls to ensure that passwords for GAN accounts are configured in
   accordance with DHS requirements.



                                                   5

                                   Department of Homeland Security
                              Information Technology Management Letter 

                               Federal Law Enforcement Training Center

                                         September 30, 2013


�	 Implement monitoring controls over the account management process specific to FLETC and
   I&A/OPS contractors with access to the respective Momentum environments, including periodic
   notification of separated or transferred contractors and periodic revalidation of authorized contract
   personnel, to ensure that access to the applications remains current and commensurate with job
   responsibilities in accordance with DHS and FLETC requirements.

�	 Implement technical controls to enforce DHS and FLETC requirements related to implementation of
   account inactivity controls, and implement monitoring controls to review and ensure continued
   compliance with account inactivity requirements.

�	 Implement monitoring controls over the account management process to ensure that granting,
   modification and revocation of access to the FLETC and I&A/OPS Momentum environments,
   including generic accounts, are authorized, documented, and performed timely and in accordance with
   DHS and FLETC requirements.

Segregation of Duties

�	 Implement additional monitoring controls over I&A/OPS Momentum access, in particular for highly-
   privileged and administrative access, to ensure that segregation of duties principles are enforced in
   accordance with DHS and FLETC policy.




                                                   6

                                    Department of Homeland Security
                               Information Technology Management Letter 

                                Federal Law Enforcement Training Center

                                          September 30, 2013


                                   IT APPLICATION CONTROLS

During the FLETC and I&A/OPS component of the FY 2013 DHS financial statement audit, we
identified the following IT application control and financial system functionality deficiency:

Finding

�	 The I&A/OPS instance of the Momentum application lacked controls to prevent or detect the
   processing of multiple payment vouchers referencing the same invoice, which could result in the
   recording of improper expenses in the general ledger.

Recommendation

�	 While we noted that FLETC management corrected the deficiency described above, we recommend
   that the FLETC OCFO and OCIO, in coordination with the DHS OCFO and the DHS OCIO, continue
   to implement appropriate monitoring controls to ensure that required system configurations, including
   the invoice control tolerance settings, are properly implemented to ensure the continued effectiveness
   of preventative or detective controls related to key financial line items and assertions material to the
   DHS consolidated financial statements.




                                                    7

                       Department of Homeland Security
                  Information Technology Management Letter 

                   Federal Law Enforcement Training Center

                             September 30, 2013




                             Appendix A 

Description of Key FLETC and I&A/OPS Financial Systems and IT 

  Infrastructure within the Scope of the FY 2013 DHS Financial 

                         Statement Audit 





                                     8

                                                                                               Appendix A

                                    Department of Homeland Security
                               Information Technology Management Letter
                                Federal Law Enforcement Training Center
                                          September 30, 2013


Below is a description of significant FLETC and I&A/OPS financial management systems and supporting
IT infrastructure included in the scope of the FLETC and I&A/OPS component of the DHS FY 2013
financial statement audit.

Financial Accounting and Budgeting System (FABS)

The FLETC FABS application (also referred to as Momentum) is an all-in-one financial processing
system. It functions as the computerized accounting and budgeting system for FLETC. FLETC provides
financial management services to I&A/OPS through a separately hosted Momentum environment, which
was developed to mirror the FLETC Momentum environment. The FABS system exists to provide all of
the financial and budgeting transactions in which FLETC is involved. FABS system users are from all
FLETC sites that input requisitions and managers that approve receipt of property and manage the
property asset records and financial records for contracts, payments, payroll, and budgetary transactions.
Hosted on a Microsoft Server 2003 and Oracle Linux Server, the FABS application (Oracle Web Logic)
and database (Oracle 10g) servers reside on the FLETC GAN in a Hybrid physical network topology and
are accessible from four sites: Georgia (GA), DC, New Mexico, and Maryland. The system owner and
responsible office is the Finance Division Chief in the FLETC OCFO.

Glynco Administrative Network (GAN)

The purpose of GAN is to provide access to IT network applications and services to include video and
voice teleconferencing to authorized FLETC personnel, contractors and partner organizations located at
the Georgia facility. It provides authorized users access to email, internet services, required applications
such as Financial Management Systems, Procurement systems, Property management systems, Video
conference, and other network services and shared resources. The GAN is located in GA and is owned
and operated by the FLETC OCIO.




                                                     9

                     Department of Homeland Security
                Information Technology Management Letter 

                 Federal Law Enforcement Training Center

                           September 30, 2013




                           Appendix B 

FY 2013 IT Notices of Findings and Recommendations at FLETC 

                         and I&A/OPS





                                   10

                                                                                                                               Appendix B

                                                      Department of Homeland Security
                                                 Information Technology Management Letter 

                                                  Federal Law Enforcement Training Center

                                                            September 30, 2013


FY 2013 NFR #                                       NFR Title                                 FISCAM Control Area         New     Repeat
                                                                                                                          Issue    Issue
FLETC-IT-13-01   FLETC Momentum Audit Log Reviews not Consistently Maintained                     Access Controls          X
FLETC-IT-13-02   Weakness in GAN Password Complexity                                              Access Controls          X
FLETC-IT-13-03   FLETC Momentum Account Management not Consistently Performed                     Access Controls          X
FLETC-IT-13-04   Momentum Application Inactivity Lockout is not Appropriately Configured          Access Controls          X
FLETC-IT-13-05   FLETC Contractor Separation not Fully Monitored                                  Access Controls          X
IAOPS-IT-13-01   IA&OPS Momentum Audit Log Reviews not Consistently Performed in a Timely         Access Controls          X
                 Manner
IAOPS-IT-13-02   IA&OPS Segregation of Duties not Fully Enforced                                Segregation of Duties      X
IAOPS-IT-13-03   IA&OPS Momentum Account Management not Consistently Performed                    Access Controls                   X
IAOPS-IT-13-04   Momentum Application Inactivity Lockout is not Appropriately Configured          Access Controls          X
IAOPS-IT-13-05   IA&OPS Contractor Separation not Fully Monitored                                 Access Controls          X
IAOPS-IT-13-06   Multiple Payment Vouchers can be Processed Against the Same Invoice          Business Process Controls    X




                                                                      11

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   Chief Financial Officer
   Chief Information Officer
   Chief Information Security Officer
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-14-84
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
